Federal Financial Institutions
Examinations Council
Financial Statements as of and for the Years
Ended December 31, 2008 and 2007, and
Independent Auditors’ Report
FEDERAL FINANCIAL INSTITUTIONS EXAMINATIONS COUNCIL

TABLE OF CONTENTS


                                                                                       Page

INDEPENDENT AUDITORS' REPORT                                                             1

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
  DECEMBER 31, 2008 AND 2007:

 Balance Sheets                                                                          2

 Statements of Revenues and Expenses and Changes in Cumulative Results of Operations     3

 Statements of Cash Flows                                                                4

 Notes to Financial Statements                                                         5–10

INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND ON INTERNAL CONTROL                     11–12
OVER FINANCIAL REPORTING BASED ON AN AUDIT OF FINANCIAL
STATEMENTS PERFORMED IN ACCORDANCE WITH GOVERNMENT
AUDITING STANDARDS
INDEPENDENT AUDITORS' REPORT

The Federal Financial Institutions Examinations Council:

We have audited the accompanying balance sheets of the Federal Financial Institutions
Examinations Council (the “Council”) as of December 31, 2008 and 2007, and the related
statements of revenues and expenses and changes in the cumulative results of operations, and
cash flows for the years then ended. These financial statements are the responsibility of the
Council’s management. Our responsibility is to express an opinion on these financial statements
based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
respective financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit
procedures that are appropriate in the circumstances, but not for the purpose of expressing an
opinion on the effectiveness of the Council’s internal control over financial reporting.
Accordingly, we express no such opinion. An audit includes examining, on a test basis, evidence
supporting the amounts and disclosures in the respective financial statements, assessing the
accounting principles used and significant estimates made by management, as well as evaluating
the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial
position of the Federal Financial Institutions Examinations Council as of December 31, 2008 and
2007, and the results of its operations and its cash flows for the years then ended in conformity
with accounting principles generally accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated March
6, 2009, on our consideration of the Council’s internal control over financial reporting and our
tests of its compliance with certain provisions of laws, regulations, contracts, and grant
agreements and other matters. The purpose of that report is to describe the scope of our testing
of internal control over financial reporting and compliance and the results of that testing, and not
to provide an opinion on the internal control over financial reporting or on compliance. That
report is an integral part of an audit performed in accordance with Government Auditing
Standards and should be considered in assessing the results of our audit.




McLean, VA
March 6, 2009
FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL
BALANCE SHEETS
AS OF DECEMBER 31, 2008 AND 2007



ASSETS                                                                  2008              2007
CURRENT ASSETS:
    Cash                                                            $      708,677    $      838,171
    Accounts receivable from member organizations (Note 3)               1,572,136         1,613,866
    Other accounts receivable, net (Note 2)                                105,623           256,897
                Total current assets                                     2,386,436         2,708,934

CAPITAL ASSETS
    Furniture and equipment, at cost                                        24,199            56,121
    Central Data Repository, at cost (Note 4)                           16,036,559        15,141,191
    HMDA Software, at cost (Note 3)                                      1,544,895           745,110
    Less accumulated depreciation                                       (7,887,093)       (5,421,241)
                Net capital assets                                       9,718,560        10,521,181
TOTAL ASSETS                                                        $   12,104,996    $   13,230,115

LIABILITIES AND CUMULATIVE RESULTS OF OPERATIONS

CURRENT LIABILITIES:
    Accounts payable and accrued liabilities payable
      to member organizations (Note 3)                              $    1,300,718    $    1,148,794
    Other accounts payable and accrued liabilities (Note 4)                652,538         1,251,530
    Accrued payroll and annual leave                                        22,008           231,451
    Deferred revenue (current portion) (Note 4)                          3,388,881         2,497,774
                Total current liabilities                                5,364,145         5,129,549

LONG-TERM LIABILITIES:
    Deferred revenue (non-current portion) (Notes 3 and 4)               6,579,680         8,023,407
    Deferred rent (Note 5)                                                       -            32,515
                Total long-term liabilities                              6,579,680         8,055,922
                Total liabilities                                       11,943,825        13,185,471
CUMULATIVE RESULTS OF OPERATIONS                                          161,171            44,644
TOTAL LIABILITIES AND CUMULATIVE RESULTS OF OPERATIONS              $   12,104,996    $   13,230,115


See accompanying Notes to Financial Statements.


                                                              -2-
FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL
STATEMENTS OF REVENUES AND EXPENSES AND
CHANGES IN CUMULATIVE RESULTS OF OPERATIONS
FOR THE YEARS ENDING DECEMBER 31, 2008 AND 2007

REVENUES:                                                    2008             2007
    Assessments on member organizations (Note 3)         $      574,447   $      540,813
    Central Data Repository (Note 4)                          6,160,478        5,723,376
    Home Mortgage Disclosure (Note 6)                         2,969,535        2,830,584
    Tuition (Note 3)                                          1,744,029        2,141,331
    Community Reinvestment Act (Note 6)                         931,244          881,953
    Uniform Bank Performance Report (Note 6)                    565,522          585,973
    Appraisal Subcommittee (Note 6)                             178,963          216,556
                Total revenues                               13,124,218       12,920,586

EXPENSES:
    Data processing                                           4,126,928        3,988,462
    Professional fees (Note 4)                                4,261,260        4,057,023
    Salaries and related benefits (Note 3)                    1,164,304        1,374,193
    Depreciation (Note 4)                                     2,497,774        2,474,070
    Rental of office space (Note7)                              454,184          516,364
    Administration fees (Note 3)                                190,400          190,800
    Travel                                                      135,006          120,181
    Books and subscriptions                                      16,255           96,696
    Other seminar expenses                                       30,824           21,571
    Rental and maintenance of office equipment                   41,998           56,598
    Office and other supplies                                    33,980           26,686
    Printing                                                     43,261           27,099
    Postage                                                       2,475            5,075
    Miscellaneous                                                 9,042            4,514
                Total expenses                               13,007,691       12,959,332

RESULTS OF OPERATIONS                                           116,527          (38,746)
CUMULATIVE RESULTS OF OPERATIONS, Beginning of period            44,644           83,390
CUMULATIVE RESULTS OF OPERATIONS, End of period          $      161,171   $       44,644




See accompanying Notes to Financial Statements.


                                                   -3-
FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL
STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDING DECEMBER 31, 2008 AND 2007



                                                                                         2008              2007
CASH FLOWS FROM OPERATING ACTIVITIES:
RESULTS OF OPERATIONS                                                                $     116,527     $      (38,746)
  Adjustments to reconcile results of operations to net cash provided by operating
  activities:

     Depreciation                                                                         2,497,774         2,474,070
     Central Data Repository write-off                                                    1,068,697                 -

     (Increase) decrease in assets:
        Accounts receivable from member organizations                                       41,730           (616,524)
        Other accounts receivable                                                          151,274            (13,717)

     Increase (decrease) in liabilities:
        Accounts payable and accrued liabilities payable to member organizations
           to member organizations                                                          151,924          351,701
        Other accounts payable and accrued liabilities                                     (598,992)         606,092
        Accrued payroll and annual leave                                                   (209,443)         (81,587)
        Deferred revenue (current and non-current)                                         (552,620)         506,896
        Deferred rent                                                                       (32,515)         (25,648)
                Net cash provided by operating activities                                 2,634,356         3,162,537

CASH FLOWS FROM INVESTING ACTIVITIES
          Capital expenditures                                                           (2,763,850)       (2,980,966)
                Net cash used in investing activities                                    (2,763,850)       (2,980,966)
NET (DECREASE) INCREASE IN CASH                                                            (129,494)         181,571
CASH BALANCE, Beginning of period                                                          838,171           656,600
CASH BALANCE, End of period                                                          $     708,677     $     838,171




See accompanying Notes to Financial Statements.


                                                               -4-
FEDERAL FINANCIAL INSTITUTIONS EXAMINATIONS COUNCIL

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2008 AND 2007



1. ORGANIZATION AND PURPOSE

  Organization and Purpose The Federal Financial Institutions Examination Council (the “Council”) was
  established under Title X of the Financial Institutions Regulatory and Interest Rate Control Act of 1978.
  The purpose of the Council is to prescribe uniform principles and standards for the federal examination of
  financial institutions and to make recommendations to promote uniformity in the supervision of these
  financial institutions. The five agencies which are represented on the Council, referred to hereinafter as
  member organizations, are as follows:

      Board of Governors of the Federal Reserve System (FRB)
      Federal Deposit Insurance Corporation (FDIC)
      National Credit Union Administration (NCUA)
      Office of the Comptroller of the Currency (OCC)
      Office of Thrift Supervision (OTS)

  In accordance with the Financial Services Regulatory Relief Act of 2006, a representative state regulator
  was added as a full voting member of the FFIEC in October 2006.

  The Council was given additional statutory responsibilities by section 340 of the Housing and
  Community Development Act of 1980, Public Law 96-399. Among these responsibilities are the
  implementation of a system to facilitate public access to data that depository institutions must disclose
  under the Home Mortgage Disclosure Act of 1975 (HMDA) and the aggregation of annual HMDA data,
  by census tract, for each metropolitan statistical area.

  Appraisal Subcommittee—The Council's financial statements do not include financial data for the
  Appraisal Subcommittee. The Appraisal Subcommittee of the Council was created pursuant to Public
  Law 101–73, Title XI of the Financial Institutions Reform, Recovery, and Enforcement Act of 1989. The
  functions of the Appraisal Subcommittee are related to the certification and licensing of individuals who
  perform appraisals in connection with federally related real estate transactions. Members of the Appraisal
  Subcommittee consist of the designees of the heads of those agencies which comprise the Council and the
  designee of the head of the Department of Housing and Urban Development.

  All functions and responsibilities assigned to the Council under Title XI are performed directly by the
  Appraisal Subcommittee without any need for approval or concurrence from the Council. The Appraisal
  Subcommittee has its own policies and procedures and submits its own Annual Report to the President of
  the Senate and Speaker of the House. The Council is not responsible for any debts incurred by the
  Subcommittee, nor are Subcommittee funds available for use by the Council.

2. SIGNIFICANT ACCOUNTING POLICIES

  The Council prepares its financial statements in accordance with accounting principles generally accepted
  in the United States based upon accounting standards issued by the Financial Accounting Standards
  Board (FASB).



                                                   -5-
  Revenues—Assessments made on member organizations for operating expenses and additions to
  property are based on expected cash needs. Amounts over- or under- assessed due to differences between
  actual and expected cash needs flow into “Cumulative Results of Operations” during the year and then are
  used to offset or increase the next year's assessment. Deficits in “Cumulative Results of Operations” can
  be made up in the following year's assessments.

  Tuition revenue is adjusted at year-end to match expenses incurred as a result of providing education
  classes. For differences between revenues and expenses, member agencies are billed an additional amount
  or credited a refund based on each member's proportional cost for the Examiner Education budget.

  Capital Assets—Furniture and equipment is recorded at cost less accumulated depreciation. Depreciation
  is calculated on a straight-line basis over the estimated useful lives of the assets, which range from four to
  ten years. Upon the sale or other disposition of a depreciable asset, the cost and related accumulated
  depreciation are removed from the accounts and any gain or loss is recognized. The Central Data
  Repository (CDR), an internally developed software project, is recorded at cost in accordance with
  Statement of Position 98-1, Accounting for the Costs of Computer Software Developed or Obtained for
  Internal Use. (See Note 4)

  Deferred Revenue—Deferred revenue includes cash collected and accounts receivable primarily related
  to the CDR and Home Mortgage Disclosure Act (HMDA). (See Notes 3 and 4)

  Estimates—The preparation of financial statements in conformity with accounting principles generally
  accepted in the United States requires management to make estimates and assumptions that affect the
  reported amounts of assets and liabilities and the disclosure of contingent assets and liabilities at the date
  of the financial statements and the reported amounts of revenues and expenses during the reporting
  period. Actual results could differ from those estimates.

  Allowance for Doubtful Accounts—Accounts receivable are shown net of the allowance for doubtful
  accounts. Accounts receivable considered uncollectible are charged against the allowance account in the
  year they are deemed uncollectible. The allowance for doubtful accounts is adjusted monthly, based upon
  a review of outstanding receivables.

3. TRANSACTIONS WITH MEMBER ORGANIZATIONS

  Accounts Receivable                                                         2008                 2007

     Board of Governors of the Federal Reserve System                     $      373,466       $      343,739
     Federal Deposit Insurance Corporation                                       466,052              434,908
     National Credit Union Administration                                        109,261               97,765
     Office of the Comptroller of the Currency                                   522,167              500,397
     Office of Thrift Supervision                                                101,190              237,057
                                                                          $    1,572,136       $    1,613,866




                                                     -6-
Accounts Payable and Accrued Liabilities                                  2008                2007

   Board of Governors of the Federal Reserve System                   $     650,672       $      532,047
   Federal Deposit Insurance Corporation                                    396,899              182,491
   National Credit Union Administration                                      40,085               66,342
   Office of the Comptroller of the Currency                                132,891              344,659
   Office of Thrift Supervision                                              80,171               23,255
                                                                      $    1,300,718      $    1,148,794

Operations
  Assessments to member organizations for:
    Operating Expenses                                                $     574,447       $      540,813

   FRB provided administrative support services to the
   Council at an expense of:                                          $     190,400       $      190,800

The Council does not directly employ personnel, but rather member organizations detail personnel to
support Council operations. These personnel are paid through the payroll systems of member
organizations. Salaries and fringe benefits, including retirement benefit plan contributions, are reimbursed
to these organizations. The Council does not have any post-retirement or post-employment benefit
liabilities since Council personnel are included in the plans of the member organizations.

Member organizations are not reimbursed for the costs of personnel who serve as Council members and
on the various task forces and committees of the Council. The value of these contributed services is not
included in the accompanying financial statements.

Examiner Education
   The Council provides seminars in the Washington, D.C. area and at
   regional locations throughout the country for member organization
   examiners and other agencies. Tuition revenue earned from member
   organizations was:                                                $     1,627,429      $    2,036,000

Operations
  Other Member Expenses Member organizations provide office space
  and data processing services to the Council at an expense of:   $        4,374,577      $    3,945,705


HMDA Deferred Revenue
In 2007, the Council began a rewrite of the entire HMDA processing system. The total estimated cost for
the rewrite is $3.2 million over 3.5 years. The cost of the software in process is $1,544,895 and $745,110
as of December 31, 2008 and 2007, respectively.



                                                   -7-
  UBPR
  The Council coordinates the production and distribution of the Uniform Bank Performance Reports
  (UBPR) through the FDIC. The Council is reimbursed for the direct cost of the operating expenses it
  incurs for this project.

4. CENTRAL DATA REPOSITORY

  In 2003, the Council entered into an agreement with UNISYS, totaling approximately $40 million, to
  enhance the methods and systems used to collect, validate, process, and distribute Call Report
  information, and to store this information in a Central Data Repository (CDR).

  The CDR was placed into service in October 2005. At that time, the Council began depreciating the CDR
  project on the straight-line basis over its estimated useful life of sixty-three months. The Council records
  depreciation expenses and recognizes the same amount of deferred revenue. The value of the CDR asset
  includes the fully accrued and paid cost.

  Capital Asset CDR                                                             2008                 2007

        Beginning balance                                                  $   12,858,440       $    12,313,244
        Software placed in use during the year                                  1,282,215               545,196
        Software in use                                                        14,140,655            12,858,440
        Software in development                                                 1,895,904             2,282,751

        Total asset                                                        $   16,036,559       $    15,141,191

  Other Accounts Payable and Accrued Liabilities
        Payable to UNISYS for the CDR project                              $      609,203       $      841,392
        Other vendors unrelated to the CDR project                                 43,335              410,138

        Total other accounts payable and accrued liabilities               $      652,538       $     1,251,530



  Revenues - Central Data Repository
  The Council is funding the project by billing the three participating Council member organizations (FRB,
  FDIC, and OCC).




                                                     -8-
                                                                             2008                2007
  Deferred Revenue:
    Beginning balance                                                   $     9,776,071     $   10,014,285
    Additions                                                                   895,369           2,235,856
    Less: Revenue recognized                                                 (2,497,774)        (2,474,070)
    Ending balance                                                      $     8,173,666     $    9,776,071

     Current portion deferred revenue                                   $    3,138,881      $     2,497,774
     Long-term deferred revenue                                              5,034,785            7,278,297
                                                                        $    8,173,666      $     9,776,071



  Total CDR Revenue
     Deferred revenue                                                   $    2,497,774      $     2,474,070
     Hosting and maintenance fees                                            3,662,704            3,249,306
     Total CDR revenue                                                  $    6,160,478      $     5,723,376

  Professional Fees
     Hosting and maintenance fees for the CDR project                   $    3,662,704      $     3,249,306
     Other professional fees unrelated to the CDR project                      598,556              807,717
     Total professional fees                                            $    4,261,260      $     4,057,023

  Depreciation
     Depreciation for the CDR project                                   $    2,497,774      $     2,474,070
     Average monthly amortization                                       $      208,148      $       206,173

5. DEFERRED RENT

  In 2005, the Council entered into a lease for office and classroom space that contains scheduled rent
  increases over the term of the lease. In accordance with accounting principles generally accepted in the
  United States, rent abatements and scheduled rent increases must be considered in determining the annual
  rent expense to be recognized. The deferred rent represents the difference between the actual lease
  payments and the rent expense recognized.




                                                   -9-
6. OTHER REVENUE

  Home Mortgage Disclosure Act (HMDA)                                         2008                 2007

     Home Mortgage Disclosure Act (HMDA) The Council recognized
     the following revenue from member organizations for the production
     and distribution of reports under the HMDA:                        $      2,088,052      $    1,857,454
     The Council recognized the following revenue from the Department
     of Housing and Urban Development's participation in the HMDA
     project:                                                                   600,089              699,663

     The Council recognized the following revenue from the Mortgage
     Insurance Companies of America for performing HMDA-related
     work:                                                                      264,193              258,986
     The balance of the HMDA revenue for 2008 and 2007 from sales to
     the public:                                                                  17,201              14,481
     Total HMDA                                                          $     2,969,535      $    2,830,584




  Community Reinvestment Act (CRA)—The Council recognized revenue for support of operating
  expenses from the participating member agencies.

  Uniform Bank Performance Report (UBPR)—The Council recognized revenue for coordinating and
  providing certain administrative support to the UBPR project.

  Appraisal Subcommittee—The Council recognized revenue for providing space to the Appraisal
  Subcommittee.

7. OPERATING LEASES

  The FRB, on behalf of the Council, entered into two operating leases to secure office and classroom
  space. One lease terminated in 2008 and the other terminates in 2009 with a lease extension option of five
  years. Rental expenses under these operating leases were $454,184 and $516,364 as of December 31,
  2008 and 2007, respectively. The minimum lease payments for 2009 are estimated to be $255,261.




                                                  - 10 -
INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND ON INTERNAL
CONTROL OVER FINANCIAL REPORTING BASED ON AN AUDIT OF FINANCIAL
STATEMENTS PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING
STANDARDS


To The Federal Financial Institutions Examination Council:

We have audited the financial statements of the Financial Institutions Examination Council (the
“Council”) as of and for the year ended December 31, 2008, and have issued our report thereon
dated March 6, 2009. We conducted our audit in accordance with auditing standards generally
accepted in the United States of America and the standards applicable to financial audits contained
in Government Auditing Standards, issued by the Comptroller General of the United States.
Internal Control over Financial Reporting
In planning and performing our audit, we considered the Council’s internal control over financial
reporting in order to determine our auditing procedures for the purpose of expressing our opinion on
the financial statements and not to provide assurance on the internal control over financial
reporting. Our consideration of the internal control over financial reporting would not necessarily
disclose all matters in the internal control that might be material weaknesses. A material weakness
is a condition in which the design or operation of one or more of the internal control components
does not reduce to a relatively low level the risk that misstatements in amounts that would be
material in relation to the financial statements being audited may occur and not be detected within a
timely period by employees in the normal course of performing their assigned functions. We noted
no matters involving the internal control over financial reporting and its operation that we consider
to be material weaknesses.
Compliance
As part of obtaining reasonable assurance about whether the Council’s financial statements are free
of material misstatement, we performed tests of its compliance with certain provisions of laws,
regulations, contracts, and grants, noncompliance with which could have a direct and material effect
on the determination of financial statement amounts. However, providing an opinion on compliance
with those provisions was not an objective of our audit, and accordingly, we do not express such an
opinion. The results of our tests disclosed no instances of noncompliance or other matters that are
required to be reported under Government Auditing Standards.
Distribution
This report is intended solely for the information and use of the Council, management, and others
within the organization, and the Office of Inspector General, and the United States Congress, and is
not intended to be and should not be used by anyone other than these specified parties.




McLean, VA
March 6, 2009
